Appendix

Case: 20-50612

Document: 00515674359

Page: 1

Date Filed: 12/15/2020

United States Court of Appeals
for the Fifth Circuit
United States Court of Appeals
Fifth Circuit

FILED
No. 20-50612
Summary Calendar

December 15, 2020
Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Ivan Ignacio Minjarez-Molina,
Defendant—Appellant,
consolidated with
_____________
No. 20-50613
_____________
United States of America,
Plaintiff—Appellee,
v.
Ivan Ignacio Minjarez-Molina, also known as Ivan MinjarezMolina, also known as Ivan I. Minjarez, also known
as Ivan Minjarez, also known as Ivan Minjarez Molina, also
known as Ivan Ignacio Minjarez, also known as Ivan Ignacio
Molina-Minjarez,
Defendant—Appellant.

1a

Case: 20-50612

Document: 00515674359

Page: 2

Date Filed: 12/15/2020

No. 20-50612

Appeals from the United States District Court
for the Western District of Texas
USDC No. 4:20-cr-2-1
Before Wiener, Southwick, and Duncan, Circuit Judges.
Per Curiam:*
Ivan Ignacio Minjarez-Molina appeals his 30-month within-guidelines
sentence imposed following his guilty plea for entry after deportation, in
violation of 8 U.S.C. § 1326. He also appeals the concomitant revocation of
his supervised release related to his prior conviction for conspiracy to
distribute 500 grams of more of methamphetamine, in violation of 21 U.S.C.
§ 841 and § 846.
Raising one issue on appeal, Minjarez-Molina argues that the
recidivism enhancement under § 1326(b) is unconstitutional in light of
Apprendi v. New Jersey, 530 U.S. 466 (2000), and subsequent decisions
because it allows a sentence above the otherwise applicable statutory
maximum based on facts that are neither alleged in the indictment or found
by a jury beyond a reasonable doubt. He concedes that this argument is
foreclosed by Almendarez-Torres v. United States, 523 U.S. 224, 226-27
(1998), but seeks to preserve the issue for further review. The Government
filed an unopposed motion for summary affirmance agreeing that the issue is
foreclosed and, in the alternative, a motion for an extension of time to file a
brief.
As the Government argues, and Minjarez-Molina concedes, the sole
issue raised on appeal is foreclosed by Almendarez-Torres. See United States
*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

2

2a

Case: 20-50612

Document: 00515674359

Page: 3

Date Filed: 12/15/2020

No. 20-50612

v. Wallace, 759 F.3d 486, 497 (5th Cir. 2014); United States v. PinedaArrellano, 492 F.3d 624, 625-26 (5th Cir. 2007). Because the issue is
foreclosed, summary affirmance is appropriate. See Groendyke Transp., Inc.
v. Davis, 406 F.2d 1158, 1162 (5th Cir. 1969).
Although the appeals of Minjarez-Molina’s illegal reentry conviction
and supervised release revocation were consolidated, he does not address the
revocation in his appellate brief. Consequently, he has abandoned any
challenge to the revocation or revocation sentence. See Yohey v. Collins, 985
F.2d 222, 224-25 (5th Cir.1993).
Accordingly, the Government’s motion for summary affirmance is
GRANTED, and the judgments of the district court are AFFIRMED.
The Government’s alternative motion for an extension of time to file a brief
is DENIED.

3

3a

8 U.S.C. § 1326. Reentry of removed aliens
(a) In general
Subject to subsection (b), any alien who—
(1) has been denied admission, excluded, deported, or removed
or has departed the United States while an order of exclusion, deportation, or removal is outstanding, and thereafter
(2) enters, attempts to enter, or is at any time found in, the
United States, unless (A) prior to his reembarkation at a
place outside the United States or his application for admission from foreign contiguous territory, the Attorney
General has expressly consented to such alien's reapplying
for admission; or (B) with respect to an alien previously denied admission and removed, unless such alien shall establish that he was not required to obtain such advance consent under this chapter or any prior Act,
shall be fined under Title 18, or imprisoned not more than 2
years, or both.
(b) Criminal penalties for reentry of certain removed aliens
Notwithstanding subsection (a), in the case of any alien described in such subsection—
(1) whose removal was subsequent to a conviction for commission of three or more misdemeanors involving drugs, crimes
against the person, or both, or a felony (other than an aggravated felony), such alien shall be fined under Title 18,
imprisoned not more than 10 years, or both;
(2) whose removal was subsequent to a conviction for commission of an aggravated felony, such alien shall be fined under
such title, imprisoned not more than 20 years, or both;
(3) who has been excluded from the United States pursuant to
section 1225(c) of this title because the alien was excludable
under section 1182(a)(3)(B) of this title or who has been removed from the United States pursuant to the provisions of
subchapter V, and who thereafter, without the permission

4a

of the Attorney General, enters the United States, or attempts to do so, shall be fined under Title 18 and imprisoned for a period of 10 years, which sentence shall not run
concurrently with any other sentence. or
(4) who was removed from the United States pursuant to section 1231(a)(4)(B) of this title who thereafter, without the
permission of the Attorney General, enters, attempts to enter, or is at any time found in, the United States (unless the
Attorney General has expressly consented to such alien's
reentry) shall be fined under Title 18, imprisoned for not
more than 10 years, or both.
For the purposes of this subsection, the term “removal” includes any agreement in which an alien stipulates to removal
during (or not during) a criminal trial under either Federal or
State law.
(c) Reentry of alien deported prior to completion of term of imprisonment
Any alien deported pursuant to section 1252(h)(2) of this title
who enters, attempts to enter, or is at any time found in, the
United States (unless the Attorney General has expressly consented to such alien's reentry) shall be incarcerated for the remainder of the sentence of imprisonment which was pending
at the time of deportation without any reduction for parole or
supervised release. Such alien shall be subject to such other
penalties relating to the reentry of deported aliens as may be
available under this section or any other provision of law.
(d) Limitation on collateral attack on underlying deportation order
In a criminal proceeding under this section, an alien may not
challenge the validity of the deportation order described in subsection (a)(1) or subsection (b) unless the alien demonstrates
that—
(1) the alien exhausted any administrative remedies that may
have been available to seek relief against the order;

5a

(2) the deportation proceedings at which the order was issued
improperly deprived the alien of the opportunity for judicial
review; and
(3) the entry of the order was fundamentally unfair.

6a

